United States Postal Service

Office of Inspector General





GRIEVANCE AND ARBITRATION
 MANAGEMENT INFORMATION



        March 26, 1999


  Management Advisory Report

     Number LR-MA-99-001

                                   March 26, 1999

                                   ANTHONY J. VEGLIANTE
                                   VICE PRESIDENT, LABOR RELATIONS

                                   SUBJECT: Grievance and Arbitration
                                            Management Information Management
                                            Advisory Report LR-MA-99-001

                                   During a review of grievance-arbitration processes for
                                   the United States Postal Service (USPS) bargaining
                                   employees, we identified several issues relating to
                                   USPS’ ability to monitor and analyze grievance­
                                   arbitration cases (Project Number 99-EA-009-LR-000).
                                   These observations are based on interviews with
                                   Headquarters personnel and prior Postal Inspection
                                   Service and General Accounting Office (GAO) reports
                                   on the grievance-arbitration process.

                                   The former Vice President, Labor Relations1 also
                                   asked us to review USPS capability to monitor costs
                                   that accrue during grievance-arbitration processes.
                                   Citing a legitimate business need for grievance costs,
                                   the Vice President suggested such information would
                                   provide a benchmark for managers to determine the
                                   real cost of violations of the collective bargaining
                                   agreements between USPS and the four national
                                   unions. In order to maintain our independence and to
                                   preclude any organizational impairments that would
                                   compromise our objectivity in future audits, we could
                                   not develop grievance-arbitration cost information or a
                                   system to monitor such costs.

Results in Brief                   •	 The observations conveyed in this report were
                                      compiled as a result of a review undertaken of the
                                      USPS grievance-arbitration processes during
                                      recent months. This review disclosed
                                   and confirmed that systems are not in place to
                                   adequately monitor, track or analyze grievance­

1
    In February 1998, the Vice President retired from the USPS.




                                        Restricted Information
Grievance and Arbitration Management Information	                       LR-MA-99-001



                                arbitration cases USPS-wide. Specifically, the USPS
                                does not have a comprehensive management
                                information system that captures nationwide statistical
                                data on:

                                •	    the total number of grievances and pending
                                      arbitrations,
                                •	    grievance issues by type and union,
                                •	    supervisors/managers whose decisions or actions
                                      resulted in grievances,
                                •	    work hours spent by grievants, supervisors,
                                      managers and labor relations personnel on
                                      grievance and arbitration activity,
                                •	    names of repetitive filers, and
                                      social security numbers of grievants.

Observations –                  In studying the underlying causes for grievances, we
Comprehensive                   found that the USPS does not have a comprehensive
Management Information          management information system to monitor and
System                          analyze grievance-arbitration cases. We believe that
                                without such a management information system, it is
                                difficult for the USPS to identify and correct
                                management practices that result in grievances or to
                                resolve workplace issues at the lowest possible level.
                                For example, the USPS currently cannot identify
                                managers that are repeatedly violating national and
                                local agreements or individuals who file multiple
                                grievances. Furthermore, if such an information
                                system existed, USPS managers could analyze trends
                                and patterns within their areas or districts, and
                                headquarters labor relations staff could more easily
                                identify systemic issues across the country.

                                To adequately monitor and analyze grievance­
                                arbitration activity, we believe a management
                                information system should have the capability to
                                identify and analyze, among other things, recurring
                                issues and specific facilities with high volumes of
                                grievance activity. At a minimum, such a system
                                should capture the following key information by area,
                                district, and facility:

                                •    the total number of grievances and pending
                                     arbitrations,



                                               2
                                     Restricted Information
Grievance and Arbitration Management Information	                                          LR-MA-99-001



                                     •	 grievance issues by type and union
                                     •	 supervisors/managers whose operational decisions
                                        or actions resulted in grievances,
                                     •	 work hours spent by grievants, supervisors,
                                        managers and labor relations personnel on
                                        grievance-arbitration activity, and
                                     •	 repetitive filers.

                                     The USPS Grievance and Arbitration Tracking System
                                     captures some of the above information; however, it is
                                     not an effective tool to assist managers in resolving
                                     work place issues at the lowest practical level.
                                     Grievance and Arbitration Tracking System, which is a
                                     system that tracks the progression of individual Step 3
                                     grievances and pending arbitration cases through
                                     resolution, is not a comprehensive database. Although
                                     the Grievance and Arbitration Tracking System is
                                     capable of tracking grievances at Step 2 and cases
                                     handled through a modified2 or accelerated grievance
                                     process, it does not currently capture such information.
                                     As a result, the Grievance and Arbitration Tracking
                                     System does not reflect the total number of grievances
                                     that exist nationwide.

                                     In recognition of these shortcomings, USPS is
                                     redesigning the Grievance and Arbitration Tracking
                                     System to make it a more effective management
                                     information tool. Included in this redesign will be the
                                     tracking of Step 2 grievances and an expansion of the
                                     system to include a wider range of information in an
                                     user-friendlier format. However, currently the redesign
                                     does not include fields for capturing the grievant’s
                                     social security number and work hours spent on
                                     grievance activity. We believe this type of information
                                     is essential to analyzing grievance activity,
                                     understanding its relationship to other complaint
                                     processes, and estimating costs attributable to the
                                     grievance-arbitration process.

                                     Despite this redesign, improvements are needed to
                                     ensure the integrity of grievance-arbitration data before
                                     the Grievance and Arbitration Tracking System can be

2
  A modified program is a process of handling grievances and appeals to arbitration by district personnel
at the local level. District personnel resolve these cases through settlement and local arbitration.



                                                    3
                                         Restricted Information
Grievance and Arbitration Management Information	                        LR-MA-99-001



                                used as a management tool. USPS Headquarters
                                interviews and a recent Postal Inspection Service
                                review of the Allegheny Area indicate that there are
                                inaccuracies in the Grievance and Arbitration Tracking
                                System data pertaining to case status. Furthermore,
                                the lack of standard data verification practices at the
                                five processing centers that input grievance-arbitration
                                data provide no assurance that the Grievance and
                                Arbitration Tracking System data is timely or reliable.

                                To facilitate the resolution of grievances at the lowest
                                step practical, we suggest that USPS Headquarters
                                take action to establish a nationwide information
                                management system that will allow managers to
                                monitor and analyze grievance and arbitration activity.
                                To be an effective management tool, we further
                                suggest that (1) key data, including that which we have
                                identified, be captured, (2) all grievances at Step 2 and
                                above be tracked, including those cases targeted for
                                alternative grievance processes, and (3) adequate
                                internal controls be implemented to ensure data
                                reliability.

Suggestions	                    Based on our review, we suggest that you initiate the
                                following actions:

                                1.	 Establish a nationwide information management
                                    system that will allow its managers to monitor and
                                    analyze grievance and arbitration activity, and

                                2.	 To be an effective management tool, we further
                                    suggest that

                                     •	 key data that we have identified, especially
                                        social security numbers, be captured,
                                     •	 all grievances at Step 2 and above be tracked,
                                        including those cases targeted for alternative
                                        grievance processes, and
                                     •	 adequate internal controls are implemented to
                                        ensure data reliability.

Management                      The Vice President, Labor Relations in commenting on
Comments                        a draft of this report (Attachment 1) stated that:




                                              4
                                    Restricted Information
Grievance and Arbitration Management Information	                        LR-MA-99-001



                                •	 The redesigned grievance and arbitration tracking
                                   system will collect substantially more information
                                   (including grievance information at the installation
                                   level) and provide more timely, detailed, and
                                   comprehensive reports than the current system.
                                   Many of the enhancements suggested in the report
                                   will be included in the new system.

                                •	 The new system will collect grievance data at the
                                   Step 2 level and will include the ability to identify
                                   employees and issues, while avoiding direct
                                   retrieval through use of the social security number,
                                   since this is an extremely sensitive area in terms of
                                   labor law and possible National Labor Relations
                                   Board charges.

                                •	 Labor Relations has begun to collect Step 2
                                   grievance data.

                                •	 Data accuracy efforts will include on-site visits and
                                   inter-functional partnering.

Evaluation of                   Management was generally responsive to the issues
Management                      raised in this advisory report.
Comments
                                We appreciate the cooperation and courtesies provided
                                by your staff during this review. If you have any
                                questions, please contract me at (703) 248-2300.


                                 //Signed//
                                Billy J. Sauls
                                Assistant Inspector General
                                 for Employee

                                Attachment

                                cc:	 John E. Potter
                                     Yvonne D. Maguire
                                     Pete Bazylewicz
                                     John R. Gunnels
                                     Alan B. Kiel




                                              5
                                    Restricted Information
Grievance and Arbitration Management Information            LR-MA-99-001




                                             6
                                   Restricted Information
Grievance and Arbitration Management Information            LR-MA-99-001




Major Contributors to This Report Were:




                                             7
                                   Restricted Information
